       T A B L E O F C O N T E N T S 




EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                      1


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .               3


OFFICE OF AUDIT

Mission . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    5

Report Summaries . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .             6

Audits: Management Decisions and Implementation . . . . . . . . . . . . . .                                 13


OFFICE OF INVESTIGATIONS

Mission . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   14

Accomplishments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .           17

Investigative Cases . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .         18

Representative Investigations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .               20

Affirmative Civil Enforcement Program . . . . . . . . . . . . . . . . . . . . . . . . .                     31

Hotline Calls . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .     32


LEGISLATIVE AND REGULATORY REVIEW . . . . . . . . . . . . . . . . . .                                       33


APPENDICES

(A) OIG Reports Issued . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .              34

(B) OIG Reports with Recommendations that Questioned Costs and

     Recommendations that Funds Be Put To Better Use . . . . . . . . . .                                    35

(C) Report on Receivables, Waivers, and Recoveries . . . . . . . . . . . . .                                36

(D) RRB Management Reports . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                    37

(E) Cross References to Inspector General Act . . . . . . . . . . . . . . . . . .                           42

                                                    Semiannual Report to the Congress



E X E C U T I V E S U M M A R Y
                              Y



  This semiannual report summarizes the activities and accomplishments of the
  Office of Inspector General (OIG) for the period October 1, 2003 through
  March 31, 2004.

                               Audit Activities

  During this six month reporting period, the OIG continued to focus its resources on
  financial management issues and the Railroad Retirement Board’s (RRB)
  information system security activities. OIG personnel completed the audit of the
  Fiscal Year (FY) 2003 financial statements, citing the agency’s overall control
  environment and information system security as material weaknesses. The OIG
  also identified three serious management challenges facing the agency: asset
  stewardship, managing for change, and information technology security.



                             Operational Issues

  The OIG also provided management with a briefing paper on improper payments
  that summarized past oversight activities, previous recommendations for
  improvement, and planned coverage.

  The OIG recommended that the Board Members revise agency policy concerning
  tier 1 payments to incarcerated felons and fugitives. The Social Security Act (SSA)
  denies benefits to incarcerated felons and certain fugitive felons or probation
  violators. Because the RRB applies the SSA and its regulations in the
  computation of tier 1 benefits, the OIG believes that the agency should also follow
  SSA provisions that prevent payment of tier 1 benefits to incarcerated and fugitive
  felons.

  During this period, the OIG also endorsed the agency’s position concerning a
  legislative change in the Railroad Retirement and Survivors’ Improvement Act that
  requires the appointment of an independent disbursing agent to pay benefits. The


                                       1
October 1, 2003 - March 31, 2004



       Department of the Treasury currently serves as the payment agent for the RRB. If
       a legislative change is not enacted, the RRB will incur substantial additional costs
       for payment to an independent agent.

                           Investigative Accomplishments

       During the past six months, the Office of Investigations (OI) achieved 24
       convictions, 16 indictments and informations, and $946,519 in recoveries,
       restitutions, fines, civil damages, and penalties.

       OI completed a review of an employer status determination issued by the Board
       Members (Board) for a temporary railroad service employer. The employer was
       originally declared a covered employer, but after reviewing a reconsideration
       request, the Board issued a decision that the company was not an employer under
       the Railroad Retirement and Railroad Unemployment Insurance Acts. After
       reviewing the information submitted in support of the reconsideration request, OI
       provided recommendations to management for handling service and compensation
       reporting for temporary train operators.

       OI also identified weaknesses in the enforcement of building access procedures as
       the result of an investigation related to the theft of government property from the
       RRB’s headquarters building. Recommendations were provided to agency
       management to strengthen security procedures in the building.




     All reports are available on our website: http://www.rrb.gov/oig/Rrboig.htm




                                             2
                                                     Semiannual Report to the Congress



I N T R O D U C T I O N 



                      Railroad Retirement Board

   The Railroad Retirement Board (RRB) is an independent agency in the executive
   branch of the Federal government that is headed by a three member Board
   appointed by the President of the United States, with the advice and consent of the
   Senate. One member is appointed upon the recommendation of railroad
   employers, one is appointed upon the recommendation of railroad labor
   organizations, and the third, who is the Chairman, is appointed to represent the
   public interest.

   The agency administers comprehensive retirement-survivor and unemployment-
   sickness insurance benefit programs for the nation's railroad workers and their
   families under the Railroad Retirement and Railroad Unemployment Insurance
   Acts. The RRB also has administrative responsibilities under the Social Security
   Act for certain benefit payments and Medicare coverage for railroad workers.

   During FY 2003, the RRB paid $8.9 billion in retirement and survivor benefits to
   approximately 666,000 beneficiaries, while net unemployment and sickness
   insurance benefits of $94 million were paid to almost 37,000 claimants. The RRB
   also administers its own Medicare Part B program through a single carrier,
   Palmetto GBA. The carrier made payments totaling $845 million to provide
   medical insurance benefits for 568,000 beneficiaries.




                                        3
October 1, 2003 - March 31, 2004



                           Office of Inspector General

       The Office of Inspector General (OIG) has the responsibility for promoting
       economy, efficiency and effectiveness in the programs of the Railroad Retirement
       Board. The office is also charged with the detection, prevention and elimination of
       fraud, waste and abuse in agency operations. To accomplish its mission, the OIG
       conducts audits, management reviews and investigations.

       The Railroad Retirement Solvency Act of 1983 established the Office of Inspector
       General at the Railroad Retirement Board by naming the agency as “one of such
       establishments” identified under Section 2 of the Inspector General Act of 1978.
       The Inspector General Act Amendments of 1988 added the RRB to the list of
       agencies covered by the Inspector General Act.

       In FY 2004, the OIG has 53 employees assigned to three operational components:
       the immediate office of the Inspector General, the Office of Audit, and the Office of
       Investigations. The office conducts operations from two locations: the
       headquarters of the Railroad Retirement Board in Chicago, Illinois, and an
       investigative field office in Philadelphia, Pennsylvania.




                                             4
                                                    Semiannual Report to the Congress



O F F I C E                O F             A U D I T 



   The Office of Audit (OA) conducts audits and reviews to promote economy,
   efficiency, and effectiveness in the administration of RRB programs, and to detect
   and prevent waste, fraud, and abuse in such programs. Through the Inspector
   General, the office ensures that the Board Members and Congress are informed of
   current and potential problems in the RRB’s programs and operations, and advised
   of recommended improvements, as well as the status of corrective actions. OA
   examines programmatic, financial, and administrative aspects of RRB operations.

   During this semiannual reporting period, OA focused on financial management
   issues and the RRB’s information system security activities. Auditors completed
   the audit of the agency’s FY 2003 financial statements and identified serious
   management challenges at the RRB. OA also continued to work closely with RRB
   information systems staff to ensure progress continued on implementing corrective
   actions to strengthen the agency’s information security systems.

   Operational issues were also addressed. Auditors prepared a briefing paper on
   the OIG’s oversight of improper payments that discussed the magnitude and
   causes of improper payments in the RRA and RUIA programs. The document
   included a description of OIG recommendations for improved agency performance.
   Two other areas, the appointment of an independent disbursing agent and benefit
   payments to incarcerated and fugitive felons, were also reviewed.

   Summaries of these activities follow.




                                           5
October 1, 2003 - March 31, 2004



           AUDIT OF THE FY 2003 FINANCIAL STATEMENTS

       On January 23, 2004, the Railroad Retirement Board issued its FY 2003
       Performance and Accountability Report that summarized the agency’s
       accomplishments in administering the programs provided by the Railroad
       Retirement Act and the Railroad Unemployment Insurance Act.

       Included in this report were the results of the OIG audit of the FY 2003 financial
       statements and a discussion of the serious management challenges facing the
       agency that have been identified by the OIG.

       OIG auditors concluded the audit of the Railroad Retirement Board’s FY 2003
       financial statements, related internal controls and compliance with laws and
       regulations. Auditors reported that the principal financial statements presented
       fairly the financial position of the RRB as of September 30, 2003 and 2002. They
       also cited two material weaknesses, the overall control environment and the
       agency’s information system security, that were disclosed during their evaluation of
       internal controls. Tests of agency compliance with certain provisions of laws and
       regulations disclosed no instances of non-compliance.

       Material Weaknesses

       Overall Control Environment

       As in each financial statement audit since FY 1993, auditors continued to classify
       the RRB’s overall control environment as a material weakness. They stated this
       weakness in internal control results from an organizational structure that does not
       provide proactive top-down leadership in addressing financial reporting issues.
       The managers of RRB operating components do not seek assistance across
       organizational lines to resolve problems related to financial accounting and
       reporting.

       Auditors also noted that the Office of Management and Budget has established a
       timetable for acceleration of financial statement reporting in the Federal
       government. The RRB will be required to submit audited financial statements for
       FY 2004 by November 15, 2004. In the opinion of the auditors, this new timetable
       will be a major challenge to existing agency resources.


                                             6
                                                   Semiannual Report to the Congress



Auditors stated that the RRB’s successful compliance with the accelerated
reporting deadline will be considered as evidence of the adequacy of the agency’s
overall control environment with respect to financial statement reporting only.

As in previous years, RRB management disagreed with the auditors’ assessment
of the overall control environment, and did not report this issue as a material
weakness in the agency’s report on internal control and financial systems, as
required by the Federal Managers’ Financial Integrity Act (FMFIA). Management
believes sufficient corrective action has been taken.

Information System Security

During FYs 2001-2003, OIG auditors performed evaluations of information security
in accordance with the Government Information Security Reform Act and the
Federal Information Security Management Act. These reviews identified
weaknesses in most areas of the RRB’s information security program. Auditors
identified the program as a source of material weakness in internal control over
financial reporting as a result of significant deficiencies in program management
and access controls.

The RRB has initiated actions to correct identified weaknesses and to strengthen
information security. However, the most significant problems remain. Program
management continues to be negatively impacted by the lack of training of key
personnel. Access controls are not effective because of weaknesses in account
management in both the mainframe and end-user computer environments.

RRB management did report this material weakness in the agency’s information
security program in the report on internal control and financial systems, as required
by the FMFIA.



          SERIOUS MANAGEMENT CHALLENGES

The OIG has identified three serious management challenges facing the RRB:
Asset Stewardship, Managing for Change, and Information Technology Security.




                                      7
October 1, 2003 - March 31, 2004



       Asset Stewardship

       In FY 2002, the OIG raised questions concerning the adequacy of oversight
       provided to the National Railroad Retirement Investment Trust (NRRIT). The
       Railroad Retirement and Survivors’ Improvement Act of 2001 established this body
       to invest funds not needed immediately to pay benefits under the Railroad
       Retirement Act. By the close of FY 2003, the RRB had transferred over $20 billion
       to the NRRIT.

       The NRRIT must submit only annual audited financial statements, and is not
       required to provide interim reports, details of holdings or investment strategy
       outside the annual report. Under the legislation, the RRB may bring civil action
       against the NRRIT if any provisions of the RRA are violated. The OIG has urged
       RRB management to take a more active interest in NRRIT activities so that it can
       assess whether the Trustees are fulfilling their fiduciary responsibilities.

       Management continues to maintain its largely passive relationship with NRRIT.

       Managing for Change

       The OIG has expressed serious concerns about the continued viability of the RRB
       as a business entity, and has recommended that management be proactive in
       redesigning the service delivery model for the retirement and survivor benefit
       programs. Because the agency serves a declining number of railroad workers and
       beneficiaries, the OIG has urged the agency to transform itself to meet the
       challenges of providing efficient service delivery to a declining number of railroad
       workers and beneficiaries. Agency management has generally disregarded OIG
       recommendations in this area.

        Information Technology Security

       The OIG has cited the agency with material weaknesses that have resulted from
       significant deficiencies in access controls in both the mainframe and end-user
       computing environments, and in the training provided to staff with significant
       security responsibilities. Agency management has completed corrective actions
       for many recommendations in this area, but has not eliminated all the deficiencies



                                            8
                                                    Semiannual Report to the Congress



in training and access controls that were the basis for the original finding of
material weakness.

As the RRB expands internet communication services with beneficiaries and
railroad employers, management will face additional challenges in developing and
maintaining a strong information security position.

Management has acknowledged this material weakness. Most of the
recommendations for improved information security contained in evaluations by
the OIG or technical specialists under contract to the OIG have been implemented
or are scheduled for implementation in FY 2004. The RRB plans to eliminate the
information system security material weakness in FY 2004.

The OIG continues to closely monitor the implementation of recommendations for
corrective action for improved information security at the agency. Of 132 items
issued, agency management has rejected 11 and completed action for 80. The
majority of the remaining recommended actions are scheduled for completion by
the end of the calendar year.


                      OPERATIONAL ISSUES

Oversight of Improper Payments

During this reporting period, the Office of Inspector General provided RRB
management with a briefing paper on the issue of improper payments, an area that
the OIG has continually targeted for oversight.

The OIG concluded that underlying legislation and the self-reporting
responsibilities imposed on beneficiaries cause the RRA and RUIA benefit
programs to be at high risk of improper payments through error, lack of
management oversight, and fraud. Improper payments typically occur as the result
of out-of-date information on the beneficiary’s personal status such as death,
divorce, remarriage or recovery from disability, and adjudicative error, mainly in
older cases.

The paper provided a summary of all audit recommendations for improvement in
payment accuracy, overpayment recognition and debt recovery operations, and


                                       9
October 1, 2003 - March 31, 2004



       quality assurance activities issued from FY 1998 through FY 2003. Agency
       management has implemented or plans to implement 50 of the 56 OIG
       recommendations.

       The OIG also outlined planned coverage through the performance of audits,
       evaluations and inspections that address agency quality assurance activities, fraud
       prevention in emerging information technology, and payment accuracy, including
       overpayment recognition and debt recovery. The OIG’s Office of Investigations will
       continue to identify and prosecute fraud in the RRA and RUIA programs.

       Appointment of an Independent Disbursing Agent

       The Railroad Retirement and Survivors’ Improvement Act (RRSIA), enacted on
       December 21, 2001, contains a provision that provides for the appointment of an
       independent disbursing agent to pay benefits but includes no timetable for
       implementation. At present, the Department of the Treasury serves as the
       payment agent for the RRB. Agency officials have calculated that using an
       independent disbursing agent will result in substantial additional costs - from the
       current cost of $800,000 to approximately $2.9 million a year. As a result, the RRB
       submitted proposed legislation to the Congress to remove the non-governmental
       disbursement agent provision.

       On November 19, 2003, the Inspector General endorsed the RRB’s position in a
       letter to the Office of Management and Budget. He stated that there is no clear cut
       benefit to the expenditure that would justify the additional expenses to be borne by
       the trust funds. In addition, the current arrangement with the Department of the
       Treasury provides greater flexibility to minimize the impact of erroneous benefits
       payments.

       As of March 31, 2004, no action had been taken on the proposed legislation.

       Benefit Payments to Incarcerated and Fugitive Felons

       During this reporting period, the OIG recommended that the agency’s Board
       Members revise agency policy for tier 1 payments to incarcerated felons and
       fugitives. Tier 1 is that portion of an employee annuity that is based on combined
       railroad retirement and social security credits, calculated under social security


                                            10
                                                 Semiannual Report to the Congress



formulas, and approximates what social security would pay if railroad work was
covered by that system.

In 1983, the Social Security Act (SSA) was amended to deny benefits to
individuals imprisoned for felony convictions. The RRB’s General Counsel
determined this provision was applicable, and the agency then denied tier 1
benefits to imprisoned RRB beneficiaries. In January 1995, the agency reversed
its policy on such payments following an appeal by an incarcerated felon. The
SSA was also recently amended to deny benefits to certain fugitive felons or
probation violators. Therefore, the RRB should withhold benefit payments to these
individuals.

Because the RRB applies the SSA and its regulations in the computation of tier 1
benefits, we recommended that the agency also follow the SSA and its regulations
that prevent payment of tier 1 benefits to incarcerated and fugitive felons. Such
action would send a consistent message from the government for zero tolerance
for fraud and abuse. The matter is currently under consideration by agency
management.




OA also issued an assessment of the agency’s procurement activities for
compliance with agency policies and procedures as well as Federal regulations.

Review of the Railroad Retirement Board’s Acquisition Process
                     Contracts for Services

The Federal Acquisition Regulations (FAR) provide uniform policies for the
acquisition of supplies and services by executive agencies. The Federal Supply
Schedule (FSS) program provides Federal agencies with a simplified process for
obtaining commonly used products and services at prices associated with volume
buying. The General Services Administration (GSA) manages this program and
awards contracts to multiple companies supplying comparable products and
services. Any Federal agency can then place orders with FSS contractors.

The RRB uses the FSS program to increase the efficiency of agency procurement.
The agency utilizes contracts for goods and services that it cannot perform in-


                                    11
October 1, 2003 - March 31, 2004



       house or that external vendors can perform more effectively and efficiently.
       During FYs 2001 and 2002, the RRB contracted for $12.3 million and $9.4 million,
       respectively, for such services.

       OIG auditors performed this review to assess the RRB’s compliance with the
       applicable Federal regulations as well as internal agency policies and procedures
       for procurement. They determined that agency actions did not: (1) always comply
       with applicable regulations, (2) consistently seek competitive quotations for
       services, (3) provide statements of work to vendors, or (4) adequately review price
       and proposal details prior to making a contract decision.

       Auditors identified specific deficiencies related to the purchase of information
       technology services that occurred because agency contract officials incorrectly
       believed that the General Services Administration had completed all necessary
       competition and price reasonableness determinations. They relied on FAR
       guidelines but did not consider the applicable GSA special ordering procedures.
       The RRB did not have sufficient procedures that summarized the requirements for
       requesting and completing the procurement of goods and services from FSS
       contractors. In addition, procurement division personnel were excluded from initial
       contacts and discussions of prices between program managers and potential
       contractors.

       OIG auditors recommended that managers revise administrative procedures
       related to procurement from FSS contractors, provide training to procurement
       personnel, and issue a directive that emphasizes the need to contact procurement
       personnel before initiating action involving any potential procurement.
       Management agreed to procedural revisions and has incorporated the
       recommended changes into the appropriate administrative circular. Managers will
       also provide training on the use of Federal Supply Schedules and GSA special
       ordering procedures. Program officials did not agree to provide a new directive,
       citing the issuance of a memorandum in May 2003 that addressed the weakness.




                                           12
                                                 Semiannual Report to the Congress



     AUDITS: MANAGEMENT DECISIONS AND
              IMPLEMENTATION

The Office of Inspector General maintains the open audit follow-up system to track
the status of corrective actions for all audit recommendations. Office of
Management and Budget Circular No. A-50 (Revised) and the Inspector General
Act Amendments of 1988 require the reporting of management decisions and
corrective actions for all audit recommendations.



Management Decisions for Recommendations

Requiring a management decision on October 1, 2003                               0

Pending management decisions for new recommendations                             0

Management decisions for previous recommendations                                0

Recommendations pending a management decision
  on March 31, 2004                                                              0

Corrective Actions

Recommendations requiring action on October 1, 2003                             96

Recommendations issued during this period                                        3

Corrective actions completed during the period                                  27

Final actions pending on March 31, 2004                                         72




                                    13
October 1, 2003 - March 31, 2004



O F F I C E O F
I N V E S T I G A T I O N S


       The Office of Investigations (OI) focuses on RRB benefit program fraud. OI's
       primary objective is to identify and investigate cases of waste, fraud and abuse in
       RRB programs and refer them for prosecution and monetary recovery action.
       Through its investigations, OI also seeks to prevent and/or deter program fraud. In
       order to maximize the effect of its resources, OI continues to pursue cooperative
       investigative activities and coordination with other Inspectors General and law
       enforcement agencies, which include the Social Security Administration-Office of
       Inspector General, the Office of Personnel Management-Office of Inspector
       General, the Federal Bureau of Investigation (FBI), the U.S. Secret Service, the
       Internal Revenue Service, and the Postal Inspection Service.

       Railroad Employer Coverage Issue

       During this reporting period, OI completed a review of an employer status
       determination issued by the Board Members (Board) in May 2003 for a temporary
       railroad service employer. The Board ruled the employer to be covered by the
       Railroad Retirement Act (RRA) and the Railroad Unemployment Insurance Act
       (RUIA). The company then requested a reconsideration of the determination and
       submitted sample contracts that it had entered into with two railroads. The
       contracts indicated that the railroads would pay temporary train operators and
       submit the required railroad retirement taxes and reports to the RRB. In
       September 2003, the Board determined that the company was acting as a
       temporary employment agency for the railroads, and issued a decision stating that
       the company was not an employer under the Acts administered by the RRB.

       Upon receipt of the Board’s decision, OI reviewed the information submitted by the
       temporary service employer as well as reports submitted by the client railroads. In
       its initial request for a coverage determination, the employer had indicated it would
       pay contractors performing the railroad work. In its reconsideration request, the
       employer indicated the client railroads would pay the temporary train operators a


                                            14
                                                    Semiannual Report to the Congress



daily service fee. OI also reviewed invoices submitted that indicated that the
service pays the temporary operators a fee of $50 a day for any rest days;
however, the fees were not included in compensation reported to the RRB by the
client railroads. Failure to include these monies as creditable compensation will
result in disparate treatment of the temporary train operators.

Based on its review, OI issued several recommendations to the Board for handling
service and compensation reporting for temporary train operators. Implementation
of the recommended actions will ensure the client railroads are in compliance with
all applicable regulations. The Board is currently reviewing the recommendations
but has not taken action to implement them.

RRB Headquarters Security

As the result of an investigation related to the theft of government property from
the RRB’s headquarters building, OI identified weaknesses in the enforcement of
the agency’s building access procedures for non-business hours. Special agents
identified an incident in which a visitor, in the company of an RRB employee,
signed in as an employee during a weekend day.

Current policies require that agency employees entering the building must have
proper employee identification to be admitted. All visitors must present valid
identification or a letter from an agency official confirming they have a need to
enter the building, and must be escorted by authorized agency staff while they are
in the building. After normal business hours and on weekends, only authorized
employees may enter the building from outside using card keys and must sign the
employee log at the security desk. Any visitor must follow the same procedures
that are in place for normal business hours.

OI provided recommendations to agency management to strengthen security and
to eliminate the potential for similar violations in the future. The RRB’s Director of
Administration concurred with the recommendations and directed the
implementation of new procedures to improve building security operations.




                                      15
October 1, 2003 - March 31, 2004



       RRB Actions in Response to an OIG Systemic Implication Report

       In the Semiannual Report to Congress for the period ending September 30, 2002,
       OI reported on a systemic issue concerning annuitants who returned to work in the
       railroad industry and continued to be paid an annuity by the RRB. Regulations do
       not permit annuitants to receive an annuity for any month in which they return to
       service for a railroad employer. Although the RRB’s automated systems can
       identify annuitants who are reported as returning to railroad service, OI identified
       three annuitants who were not detected and were overpaid approximately
       $300,000 in annuities over a nine year period. OI advised the agency that there
       may be weaknesses in the agency’s systems that prevent the timely detection of
       individuals who return to railroad service and continue to receive their annuities.

       As a result of the information developed by OI, agency program officials conducted
       a review of the three cases and concluded that a more extensive review of the
       agency’s processes and systems was warranted. The more thorough review
       identified weaknesses in both automated systems and procedures that prevent the
       detection of some of these cases. The agency’s study also revealed that an
       additional 751 annuitants may have been overpaid as a result of these
       weaknesses.

       During this semiannual period, the agency reported that new business rules and
       procedural changes have been drafted to address cases in which annuitants return
       to service in the railroad industry. After these business rules have been finalized,
       the agency will initiate system programming changes to address this issue.




                                            16
                                            Semiannual Report to the Congress




                                                              10/01/03 -
INVESTIGATIVE ACCOMPLISHMENTS                                 03/31/04

Convictions                                                             24

Civil Judgements                                                        17

Indictments/Informations                                                16

Investigative Recoveries                                        $ 254,501

Restitutions and Fines                                          $ 448,558

Civil Damages and Penalties                                     $ 243,460

Potential Economic Loss Prevented (PELP)                        $ 189,845

Community Service Hours                                                600

Disciplinary/Administrative Action                                        0

Civil Complaints                                                        13
Criminal Complaints                                                      0

Arrests                                                                   1

Subpoena Service:
 Inspector General                                                      12
 Federal Grand Jury                                                     85
 Trial                                                                   0


U.S. Attorney Referrals                                                131




                                      17

October 1, 2003 - March 31, 2004



INVESTIGATIVE CASES

        During this semiannual period, OI opened 137 investigations and closed 118
        cases. The major sources of case referrals are illustrated below.
                                            Computer Matches - 4%

           RRB Field Offices - 16%

                                                           OIG Developed - 12%




                                                              Hotline - 15%




     RRB Headquarters - 46%                             Others - 7%




        OI's current caseload totals 557 criminal matters, representing approximately
        $19.9 million in fraud against the RRB.

                                                        Disability -203 cases
                                                            $3,117,000




                                                                 Sickness - 21 cases
  Unemployment - 130 cases                                            $97,000
        $626,000
                                                                Spouse/Dependent - 26 cases
                                                                     $609,000
                                                                Representative Payee - 27 cases
                                                                      $197,000

                                                           Other - 28 cases
                                                            $13,685,000


               Retirement - 122 cases
                    $1,608,000




                                            18
                                                      Semiannual Report to the Congress



DISTRIBUTION OF CASES

   The Office of Investigations (OI) conducts its investigations throughout the United
   States in response to complaints or allegations regarding violations of Federal law.


   The map below indicates the number of open investigations that OI currently has
   in each state; there are no open cases in Alaska or Hawaii. Two additional
   investigations are underway in Canada.




                                        19
October 1, 2003 - March 31, 2004



REPRESENTATIVE INVESTIGATIONS


                       Retirement Benefit Investigations

       RRB retirement fraud typically involves the theft and fraudulent cashing of U.S.
       Treasury checks, or the illicit conversion of U.S. Treasury electronic fund transfers,
       by someone other than the authorized RRB annuitant. During this reporting
       period, OI obtained eight convictions and two civil judgements for retirement fraud.
       Defendants received 18 years probation, seven months house arrest and were
       ordered to perform 250 hours of community service. They were also ordered to pay
       $52,350 in restitution, $350 in fines and $26,538 in damages. The RRB will
       recover an additional $115,579 in overpayments as a result of OIG investigations
       of retirement benefit programs.

       OI routinely receives referrals from the RRB’s Debt Recovery Division that involve
       the fraudulent negotiation of RRB retirement benefit checks, usually by a relative of
       a deceased annuitant.

       Examples of recent retirement cases follow.

       '	 The RRB’s Debt Recovery Division forwarded information to OI concerning
          retirement annuity benefits totaling $14,470 that were paid via electronic funds
          transfer to an annuitant for nine months following his death. The agency had
          requested a repayment from the bank in which the funds were deposited, but
          only $1,615 was returned via reclamation. Bank officials stated the remaining
          funds were unavailable, but that there was a joint bank account holder.

            OI investigation revealed that the annuitant’s stepdaughter was responsible
            for withdrawing the funds after the annuitant’s death. When interviewed by OI
            and FBI special agents, she admitted to withdrawing $12,855 from the
            account. She stated that her stepfather had pre-signed a series of personal
            checks before he died, and she had made herself the payee. At that time, she
            was an administrative manager at a sheriff’s office. She also claimed that she
            had notified the RRB and the bank of her stepfather’s death, and provided the



                                            20
                                                   Semiannual Report to the Congress



    agents with copies of the letters. However, the RRB and the bank had no
    record of such letters.

    On March 18, 2003, the stepdaughter was indicted by a Federal Grand Jury
    for violation of Title 18, §641, Theft of Government Funds (a felony). On
    September 18, a superseding criminal information was filed against her for
    violating Title 18, §641, Theft of Government Funds (a misdemeanor). On
    March 8, 2004, she was sentenced to one year probation and ordered to pay
    restitution of $12,855 to the RRB and a special assessment fee of $25. Both
    the restitution and fee have been paid. Based on the guilty plea to the
    information, the U.S. Attorney’s Office dismissed the original indictment
    charge against the subject.

'	 In this case referred to OI by the agency’s Debt Recovery Division, the RRB
   had issued $11,043 in monthly annuity benefit payments via electronic funds
   transfer for 13 months after an annuitant’s death. The RRB had requested a
   repayment from the bank through a U.S. Treasury reclamation. The bank
   replied that the funds were not available in the account, and that the
   annuitant’s daughter was a joint bank account holder.

    OI investigation determined that the daughter was responsible for the
    withdrawal of the annuity benefits. When interviewed by special agents, the
    daughter admitted she had withdrawn the funds to pay for personal
    obligations that she had incurred.

    A criminal information was filed in the Northern District of California against
    the subject for violating Title 18, §641, Theft of Government Funds. She
    pleaded guilty to the information, and was sentenced to one year probation,
    and ordered to pay restitution of $11,043 to the RRB in monthly installments
    of $100 beginning in March 2004. She was also ordered to pay a special
    assessment of $25 to the U.S. District Court.

'	 OI initiated an investigation of an RRB retirement annuitant who allegedly was
   self-employed and earning in excess of retirement limitations while receiving
   RRB administered retirement benefits. The investigation identified the
   annuitant as the sole proprietor of both a roofing company and a cattle
   company. He had earned $23,300 in calendar year 2000 and $45,505 in
   2001, but failed to report his earnings over the exempt amount to the RRB, as

                                     21
October 1, 2003 - March 31, 2004



            required under the Railroad Retirement Act. When interviewed by OI special
            agents, the subject admitted he had failed to report his self-employment
            earnings, as required.

            In October 2003, he entered into a Civil Settlement Agreement with the U.S.
            Attorney’s Office in the southern district of Texas and issued a cashier’s check
            for $11,871, the benefits to which he was not entitled, to the U.S. Department
            of Justice. The monies were then forwarded to the RRB.

       '	 The RRB’s Debt Recovery Division referred a case to OI that indicated that an
          RRB widowed annuitant had failed that she had remarried to the RRB,
          resulting in an overpayment of $55,129 in RRB benefits.

            OI investigation disclosed that a widowed annuitant had applied for and
            received various RRB annuities on behalf of her dependent daughter between
            1978 and 1981. During this time period, she received various notifications of
            the requirement to report any remarriage to the RRB. On March 21, 1985,
            she completed an application for a widow’s annuity, and agreed to
            immediately notify the RRB if she remarried. On June 18, the subject attained
            the age of 60 and began receiving her annuity. Two weeks later she
            remarried but did not notify the RRB.

            In 1999, the subject’s daughter contacted the RRB’s Newark District Office to
            inquire about her mother’s Social Security benefits. During the conversation,
            she stated her mother had remarried. When OI special agents attempted to
            interview the annuitant, her attorney declined the interview. He stated that the
            subject did not fully comprehend the information in the application for a
            widow’s annuity.

            The subject later pleaded guilty to one count of a violation of Title 18, U.S.C.
            §641, Theft of U.S. Monies. She remitted $55,129 to the RRB, the full amount
            of the overpayment in the case. A Judgement in a Criminal Case was entered
            against her by the U.S. District Court of New Jersey, and she was sentenced
            to six months home confinement, one year of probation, and was ordered to
            pay a $1,000 fine and a special assessment fee of $100.

       '	 The RRB’s Debt Recovery Division referred another case to the OI that
          indicated that an RRB widowed annuitant had died in June 2000. The agency

                                            22
                                                  Semiannual Report to the Congress



    had continued to issue funds via electronic funds transfer for another year,
    resulting in an overpayment of $14,667. Although a reclamation was
    conducted, no funds were recovered. The bank that received the funds
    identified the annuitant’s son as the person who withdrew the monies using an
    ATM.

    When OI special agents attempted to locate the son at his last known
    address, they determined the residence was occupied by his half sister who
    stated that she had not seen her half brother for some time and had no
    current address for him. Further investigation revealed that she, in fact, was
    the individual responsible for the withdrawals from her deceased mother’s
    account. When interviewed, she admitted to withdrawing the RRB funds. She
    entered into a settlement agreement with the U.S. Attorney’s Office in the
    eastern district of Pennsylvania and agreed to make full restitution of $14,667
    with monthly restitution payments of $250.

'	 A referral to OI indicated the RRB had not received immediate notification of
   an annuitant’s death in March 1996. The agency had issued 28 annuity
   checks to the annuitant totaling $30,558 from April 1996 through July 1998.
   The checks were sent to a residence that the annuitant shared with her
   daughter. Investigation revealed the daughter had died in August 1997.
   Seventeen checks were negotiated prior to the daughter’s death and bore a
   second endorsement in her name. Eleven checks were negotiated after the
   daughter’s death.

    OI special agents then obtained finger/palm prints from the annuitant’s
    grandson and his wife, and requested a forensic examination of the checks. A
    comparison identified the grandson’s prints on two checks and his wife’s
    fingerprints on one check. The agents attempted to interview the couple
    about negotiating the checks and to obtain handwriting samples, but were
    informed all communications should be made through their attorney.

    The U.S. Attorney’s Office in the Northern District of Georgia negotiated a
    Pretrial Diversion Agreement with the couple for violation of Title 18, U.S.C.
    §641, Theft of Government Funds. They are required to make restitution
    jointly in the amount of $12,192 over a 30 month period to the RRB. This
    amount represents the total overpayment for the 11 checks forged and
    negotiated following the daughter’s death. Based on the facts available, the

                                    23
October 1, 2003 - March 31, 2004



            daughter had forged and negotiated the remaining 17 checks prior to her
            death.



        Unemployment and Sickness Insurance Investigations

       Unemployment Insurance (UI) and Sickness Insurance (SI) benefit fraud involves
       individuals claiming and receiving UI or SI benefits while working and receiving
       wages from an employer, in violation of Federal law. OI receives the majority of
       these cases for followup investigation from the RRB’s Disability, Sickness and
       Unemployment Benefits Division as a result of information developed from state
       wage matching programs. These programs match RRB annuitants with individuals
       who earned compensation in each state.

       During this reporting period, OI obtained ten convictions and 14 civil judgements
       for UI and SI fraud. Defendants in these cases received, in the aggregate, one
       year imprisonment, 31 years probation and six months house arrest. They were
       ordered to pay $51,838 in restitution, $88,348 in damages, $1,950 in fines, and
       $46,915 in civil penalties. The RRB will also be able to recover an additional
       $51,233 as a result of OI investigations.

        Examples of cases completed this reporting period follow.

       '	 A state wage computer match with the State of Minnesota resulted in two
          referrals to OI concerning annuitants claiming sickness and unemployment
          insurance benefits while working.

            While employed as a maintenance technician for a property management
            company in Fargo, North Dakota, one annuitant filed 14 false claims with the
            RRB’s St. Paul, Minnesota District Office. He falsely certified that he did not
            work on days for which he claimed benefits.

            The U. S. District Court in Minneapolis filed a consent judgement against the
            subject ordering him to pay the principal amount of $9,050. This amount
            includes single damages of $4,450 doubled to $8,900, plus court costs of
            $150. The court also ruled that post-judgement interest at the legal rate from
            the date of the judgement be paid in full. The RRB will receive the original


                                             24
                                                Semiannual Report to the Congress



    overpayment amount of $4,450 and the interest pertaining to this sum. The
    remaining funds will be paid to the U.S. Department of Justice.

    The second annuitant was employed at three different companies while
    receiving unemployment benefits from the RRB. She submitted 14 false
    claims and received $5,198 in benefits. A default judgement was obtained
    against the woman for violating 31 U.S.C, §3729-31, False Claims Act in the
    amount of $21,244. The RRB will receive the $5,198 that the agency paid the
    subject while she was employed, and the Department of Justice will receive
    the remaining $16,046 which includes $150 in court costs. The subject will
    also be required to pay post judgement interest of 1.28% per annum.

'	 A wage match with the States of New Mexico and Arizona identified another
   annuitant who had received wages while claiming RRB unemployment
   insurance benefits. The subject had filed 19 false claims with the RRB’s
   Albuquerque, New Mexico District Office, and had received $6,376 in
   unemployment benefits to which he was not entitled. He was employed at a
   roofing company in Mesa, Arizona on the days claimed.

    The U. S. District Court in Phoenix filed a default judgement against the
    annuitant ordering him to pay $24,628 (single damages of $6,376 tripled to
    $19,128 plus a penalty amount of $5,500). He was also ordered to pay post-
    judgement statutory interest. The RRB will receive the overpayment amount
    of $6,376, and the related interest.




                                   25
October 1, 2003 - March 31, 2004



       '	 A matching program in Pennsylvania indicated that an annuitant collected
          unemployment insurance benefits on the same days he worked for three
          private employers. Subsequent investigation revealed that the subject had
          submitted 13 false claims to the RRB from November 6, 2000 through
          October 6, 2001, resulting in the theft of $5,552 in benefits. When
          interviewed, the subject provided a written statement agreeing to make full
          restitution to the RRB. He entered into a settlement agreement with the U.S.
          Attorney’s Office and will make restitution of $9,774 (the amount of benefits
          plus $4,222 in administrative fraud penalties) to the RRB.



                              Disability Investigations

       The OIG also conducts fraud investigations relating to the RRB's disability
       program, which typically involves larger financial amounts and more sophisticated
       schemes. An individual who receives a disability annuity is restricted to earning
       not more than $400 in one month. An earnings cap of $4,999 per year also
       applies. Disability annuitants must report all work activity to the RRB.

       During this reporting period, OI obtained five criminal convictions and one civil
       judgement for disability fraud. Defendants in these cases were collectively
       sentenced to two years, one day imprisonment, 1½ years house arrest, 16 years
       probation, and ordered to perform 350 hours of community service. In addition,
       they were ordered to pay $281,666 in restitution, $27,219 in damages, $54,438 in
       penalties, and $4,275 in fines. The RRB will recover $41,039 as a result of OI
       disability-related investigations.

       Representative cases are described below.

       '	 A disability wage match with the State of New York identified an annuitant
          who had been self-employed during 1995-1997, and had failed to report his
          income to the RRB as required. An overpayment of $61,588 was developed.

            A review of his claim file disclosed that the annuitant initially applied for a
            disability in January 1996, but failed to disclose any self-employment during
            the application process. He was subsequently awarded a disability annuity
            retroactive to January 1, 1995. In April 1999, in response to inquiries by the


                                             26
                                                   Semiannual Report to the Congress



    RRB’s Buffalo District Office, he completed a Continuing Disability Report
    indicating self-employment but stated no income was taken from the business.
    However, he also submitted partial copies of his income tax returns that
    contradicted his assertion concerning income from the business. After the
    disability wage match identified the subject, OIG special agents interviewed
    him and he admitted that he did, in fact, have unreported income and would
    cooperate in the repayment of any funds owed.

    The subject subsequently pleaded guilty to one count of Making a False
    Statement, 18 U.S.C. §1001(a)(3). He was ordered to make restitution
    totaling $61,588 to the RRB and was sentenced to 12 months and one day of
    imprisonment and two years of supervised release. He was also ordered to
    pay a fine of $4,000 and a $100 assessment fee.

'	 A wage matching program with the State of Kentucky identified a disability
   annuitant who failed to report his employment with a variety of employers
   while claiming and receiving RRB disability benefits. The OIG initiated an
   investigation and determined that the subject had worked for three non-
   railroad employers, and had earned $5,862, $13,414, and $15,815 during
   calendar years 1997-1999, respectively. In order to conceal his earnings from
   one employer, he had used a different social security number.

    When interviewed by OI special agents, the annuitant admitted he had
    concealed his wages in order to continue to receive his RRB disability
    benefits. He had received $27,219 in benefits to which he was not entitled. In
    September 2003, the U.S. Attorney’s Office in the Eastern District of Kentucky
    filed a civil complaint against the subject for violation of the False Claims Act,
    31 U.S.C. §3729-33, that alleged that he had wages that exceeded the
    earnings limitations. He did not respond to the complaint and a default
    judgment for $81,657 representing treble damages was then entered against
    the annuitant. The RRB is entitled to receive $27,219, with the remaining
    monies to be paid to the U.S. Department of Justice.

'	 The RRB’s Audit and Compliance Division referred a case involving an
   occupational disability annuitant who was allegedly employed full-time by a
   major railroad and receiving disability benefits. When interviewed by OI and
   FBI special agents, the annuitant indicated that he had returned to work for
   the railroad, and was employed from July 1997 through October 2001. He

                                     27
October 1, 2003 - March 31, 2004



            also stated that he did not know that he was also collecting RRB disability
            benefits during that time period. He stated that his wife handled all the
            financial matters for the household, and denied any knowledge that he had
            been receiving a disability annuity for the four year period.

            The special agents then interviewed the wife who provided them with two
            letters, dated 1997 and 1998, that she had allegedly sent to the RRB to inform
            the agency that her husband had returned to work for the railroad. A closer
            examination of the letters showed that the 1998 letter had been impressed
            upon the letter dated in 1997, indicating that both letters may have been
            prepared at the same time. When asked, the annuitant’s wife could not
            remember when the letters were prepared, or if she had actually mailed them
            to the RRB. She finally admitted that she had continued to receive her
            husband’s disability benefits after he returned to work, but did not tell him that
            she was receiving his benefits.

            She was indicted by a Federal Grand Jury for violation of Title 18, U.S.C.
            §641, Theft of Government Funds. She pleaded guilty and was sentenced to
            six months in prison, to be followed by six months of home confinement with
            electronic monitoring. She will then serve probation of three years. She was
            also ordered to pay full restitution of $95,079 to the RRB.

       '	 A state wage match with the State of Georgia indicated an annuitant had
          exceeded the annual earnings limitation for occupational disability in 2000 and
          2001 by working for a freight company, a security services firm and an
          armored car service.

            OI agents reviewed the annuitant’s RRB claim file and determined he had
            concealed his actual monthly earnings by providing ambiguous responses to
            questions about his hours and wages. When interviewed by the agents, the
            annuitant admitted he was aware of the earnings restrictions and had not
            accurately reported his income to the RRB. He provided a written statement
            in which he acknowledged the illegal receipt of disability benefits and agreed
            to make restitution for the overpayment of $35,145.

            On December 2, 2003, he pleaded guilty to one count of Title 45, U.S.C.
            §231l, Failure to make a report or furnish information required by the RRB.
            He was sentenced to five years of probation, six months of home confinement,

                                             28
                                                   Semiannual Report to the Congress



    150 hours of community service, ordered to make full restitution to the RRB,
    and pay a $25 special assessment to the U.S. Department of Justice.

'	 OI initiated a project to identify RRB disability annuitants who may be
   concealing employment and income under corporations established in the
   State of Georgia. Special agents reviewed an annuitant’s disability application
   that indicated that he had filed for an annuity in September 1998 and was
   awarded a disability retroactive to July 1, 1998. He was rated as
   occupationally disabled due to alcohol induced cardiomyopathy, and that he
   could not perform his past railroad job as an engineer that required lifting of up
   to 100 pounds.

    Investigation determined that the annuitant was listed as the registered agent
    and secretary for a marine construction company as well as having
    involvement in an office supply firm. He and his girlfriend had, in fact, created
    two corporations. Agents established that he also constructs boat docks and
    ramps, installs boat lifts and constructs retaining walls. Witnesses stated that
    he performs the work himself or with minimal help.

    When interviewed by special agents, the subject stated that his girlfriend
    owned and operated the two businesses and that he served only as a
    consultant. The girlfriend, in a separate interview, also stated that the
    annuitant did not work. However, investigation showed he was actively
    involved in both businesses that generated net revenues of $1 million and had
    profits of approximately $210,000 during calendar years 1999-2002. He failed
    to notify the RRB of his earnings, as required, and had fraudulently received
    $89,873 in disability benefits.

    A Federal Grand Jury charged the annuitant with violation of Title 18, U.S.C.
    §641, Theft of Government Funds, and Title 18, U.S.C. §1001, False
    Statement, for claiming and receiving disability benefits while owning and
    operating a for-profit corporation during calendar years 1999-2002. He
    pleaded guilty to the theft of government funds, and the other charge was
    dismissed. He was sentenced to six months imprisonment, six months of
    home detention, 200 hours of community service, supervised release of three
    years, and ordered to pay restitution of $89,873.




                                     29
October 1, 2003 - March 31, 2004



            The annuitant’s girlfriend was also indicted for providing false information to
            OI special agents regarding the annuitant’s involvement in the businesses, a
            violation of Title 18, U.S.C. §1001, False Statement. She entered a plea
            agreement with the U.S. Attorney’s Office and pleaded guilty to violating 18
            U.S.C. §3, Accessory After the Fact. She was sentenced to three years
            probation and fined $250.




                                             30
                                                       Semiannual Report to the Congress



AFFIRMATIVE CIVIL ENFORCEMENT (ACE) PROGRAM

  OI continues to pursue prosecution of cases under the Department of Justice's
  Affirmative Civil Enforcement Program. This program involves "fast track" civil
  prosecution of cases under the provisions of the Title 31, U. S. Code, Sections
  3729-3733, The Civil False Claims Act. This statute allows the government to
  recover up to triple damages as well as $5,000 to $10,000 for each false claim
  submitted.

  The Department of Justice frequently obtains double damages through these civil
  false claims prosecutions. The judgements obtained in these cases also provide
  the agency with an efficient and effective basis to pursue their collection activities.

  The ACE Program continues to provide an efficient means to address fraud
  against agency programs, particularly where the fraud losses are below the
  financial guidelines for criminal prosecution. It also is an effective way to return
  fraud losses to the RRB's trust funds and create a deterrent against future fraud.

  During this reporting period, nine civil judgements under the ACE program were
  entered by Federal district courts which will result in the return of $65,011 to the
  government when the funds are collected.




                                        31
October 1, 2003 - March 31, 2004



                                   HOTLINE CALLS


       The Office of Inspector General established its Hotline to receive complaints
       concerning suspected fraud, waste and abuse in RRB programs and operations.
       The Hotline provides an open line of communication for individuals to report
       suspected criminal activity, conflict of interest, mismanagement, and waste of RRB
       funds.



                                                                              10/01/03 -
                                                                              03/31/04
       Total Contacts: (Telephone Calls and Letters)                               663 



       Referred to: RRB-OIG, Office of Investigations                               31 



       RRB Bureaus/Offices                                                         342 



       Other Federal Agencies                                                       10 



       RRB Medicare Carrier/Durable Medical Equipment

       Regional Carriers
                                                            3


       Other (misdirected calls, follow-up calls to agents,

       etc.)                                                                       236 

       Calls for which there was insufficient information to

       substantiate an allegation or to make a referral                             41 





                                             32
                                                     Semiannual Report to the Congress




L E G I S L A T I                  V    E &
R E G U L A T O                    R    Y R E V I E W

   The Inspector General Act requires the Inspector General to review existing and
   proposed legislation and regulations relating to the programs and operations of the
   agency, and to make recommendations in the semiannual report concerning the
   impact on the economy and efficiency of the agency’s administration of its
   programs and on the prevention of fraud and abuse.

   During this reporting period, the agency issued a proposed regulation concerning
   the electronic filing of applications and claims for benefits under the Railroad
   Unemployment Insurance Act. The OIG advised the agency that the proposed
   regulation contained an unclear description of the application process. The
   agency subsequently revised the regulation.




                                       33
October 1, 2003 - March 31, 2004



A P P E N D I X A
                A


                                   REPORTS ISSUED


       P	   Review of the Railroad Retirement Board’s Acquisition Process - Contracts for
            Services, October 16, 2003

       P	   External Quality Assurance Review of the Office of Personnel Management,
            Office of Audit, October 16, 2003

       P    Audit of the Fiscal Year 2003 Financial Statements, January 23, 2004




                                           34
                                               Semiannual Report to the Congress



A P P E N D I X B



OIG REPORTS WITH RECOMMENDATIONS THAT
QUESTIONED COSTS

   No activity during this reporting period.




OIG REPORTS WITH RECOMMENDATIONS FOR BETTER
USE OF FUNDS

   No activity during this reporting period.




                                         35
October 1, 2003 - March 31, 2004



A P P E N D I X C
                C


REPORT ON RECEIVABLES, WAIVERS, AND
RECOVERIES
       The FY 1999 appropriations language for this office requires the reporting of
       additional information concerning actual collections, offsets and funds put to better
       use achieved as a result of Inspector General activities.
       Office of Audit

                  Funds to be put     Funds Agreed         Receivables                  Recoveries
         Report     to better use     by Management        Established      Waivers       to date


         99-03    $          50,850   $         50,850     $     50,580    $   50,490   $       360

         99-14               83,000             83,000*          34,423                      30,584

         99-16           48,000,000         48,000,000

         99-17           11,000,000         11,000,000                                   1,604,535**

         00-16             235,000             235,000                                      253,846***

       * This figure includes monies owed to the agency and overpayments which must be refunded.
       ** This figure represents case corrections that resulted in receivables, annuitant payments,
          employer tax credits and liabilities.
       ***This figure represents returned payments credited to debtor accounts.

       Office of Investigations

       Recoveries realized by the RRB resulting from court-ordered restitution and civil damages:

       October 1, 1998 - March 31, 1999                   $ 344,465
       April 1, 1999 - September 30, 1999                 $ 511,190
       October 1, 1999 - March 31, 2000                   $ 495,402
       April 1, 2000 - September 30, 2000                 $ 542,732
       October 1, 2000 - March 31, 2001                   $ 457,015
       April 1, 2001 - September 30, 2001                 $ 533,341
       October 1, 2001 - March 31, 2002                   $ 403,384
       April 1, 2002 - September 30, 2002                 $ 382,459
       October 1, 2002 - March 31, 2003                   $ 533,346
       April 1, 2003 - September 30, 2003                 $ 414,530
       October 1, 2003 - March 31, 2004                   $ 371,223




                                                   36
                                                                   Semiannual Report to the Congress



A P P E N D I X D
                D


RRB MANAGEMENT REPORTS*

               MANAGEMENT REPORT ON FINAL ACTION

               ON AUDITS WITH DISALLOWED COSTS FOR

             THE SIX MONTH PERIOD ENDING MARCH 31, 2004


                                                                                   Disallowed
                                                            Number                   Costs

 A. Audit reports, with management decisions, on
 which final action had not been taken at the
 beginning of the period.                                      0                        0

 B. Audit reports on which management decisions
 were made during the period.                                  0                        0

 C. Total audit reports pending final action during
 the period.                                                   0                        0

 D. Audit reports on which final action was taken
 during the period.

 1. Recoveries

    (a) Collections                                            0                        0
    (b) Property
    (c) Other


 2. Write-offs                                                 0                        0


 3. Total of 1 and 2                                           0                        0


 E. Audit reports needing final action at the                  0                        0
 end of the period.


* The information contained in this section has been provided by RRB management.




                                                      37
October 1, 2003 - March 31, 2004



     MANAGEMENT REPORT ON FINAL ACTION ON AUDITS

   WITH RECOMMENDATIONS TO PUT FUNDS TO BETTER USE

     FOR THE SIX MONTH PERIOD ENDING MARCH 31, 2004


                                                                                      Funds to be put
                                                              Number                   to better use
 A. Audit reports, with management decisions, on
 which final action had not been taken at the
 beginning of the period.                                         2                    $ 48,529,996 *

 B. Audit reports on which management decisions
 were made during the period.                                     0                          0

 C. Total audit reports pending final action during
 the period.                                                      2                    $ 48,529,996

 D. Audit reports on which final action was taken
 during the period.

 1. Value of recommendations implemented.                         0                     $    0

 2. Value of recommendations that management
 concluded should not or could not be
 implemented.                                                     0                     $    0

 3. Total of 1 and 2.                                             0                     $    0

 E. Audit reports needing final action at the end of
 the period.                                                      2                    $ 48,529,996

* Comprised of the following amounts: $48,000,000 from Audit Report 99-16, “Financial Interchange: Status of
Prior Recommendations for Change;” and $529,996 from Audit Report 01-11, “Review of the Quality of the
Debt Recognition and Collection Process for Railroad Retirement Act Overpayments.”




                                                       38
                                                                    Semiannual Report to the Congress



   MANAGEMENT STATEMENT ON RESOLVED AUDIT REPORTS

   OVER TWELVE MONTHS OLD WITH FINAL ACTION PENDING

                 AS OF MARCH 31, 2004

                                                    Funds to be
                                      Disallowed    put to better          Reason action has not
         Report              Date       Costs       use                       been completed

Review of Quality           1/22/97     None            None	        The remaining recommendation will
Assurance Activities                                                 be addressed as the agency
(97-06)                                                              develops a long-term approach to
                                                                     program integrity and quality
                                                                     assurance.

Review of Non-Priority      3/13/97     None            None	        The remaining recommendation will
Correspondence                                                       be addressed by the end of fiscal
Handling (97-09)                                                     year 2004 after conversion to new
                                                                     imaging software.

Review of Computer          2/21/99     None            None	        The Bureau of Information Services
Problem and Change                                                   has developed a service-level
Management Process                                                   agreement and other procedures to
(99-05)                                                              close out the last recommendation in
                                                                     fiscal year 2004.

Review of Railroad          9/21/99     None            None	        The agency has completed
Unemployment Insurance                                               programming changes to automate
Act Contributions (99-14)                                            the reconciliation process and
                                                                     provided supporting information to
                                                                     the Department of the Treasury.

Financial Interchange:      9/28/99     None        $48,000,000	     The agency has provided
Status of Prior                                                      information to the Social Security
Recommendations for                                                  Administration and is awaiting a
Change (99-16)                                                       decision on the method for reflecting
                                                                     unrecovered overpayments in
                                                                     Financial Interchange calculations.

Information Systems         6/28/00     None            None	        The agency has implemented 12
Security (INFOSEC)                                                   recommendations, and is working to
Assessment Report                                                    close out the remaining 3.

Review of Information       9/06/00     None            None	        A draft post-implementation review
Technology Contracts                                                 of upgrades to the agency’s wide-
(00-15)                                                              area network has been submitted to
                                                                     the agency’s IT Steering Committee.

Review of Document     11/17/00         None            None	        The agency hopes to close the
Imaging - Railroad                                                   remaining recommendation in fiscal
Unemployment Insurance                                               year 2004 as part of a phased
Act Programs (01-01)                                                 approach to enhancing network
                                                                     server backup capabilities.



                                                   39
October 1, 2003 - March 31, 2004



   MANAGEMENT STATEMENT ON RESOLVED AUDIT REPORTS

   OVER TWELVE MONTHS OLD WITH FINAL ACTION PENDING

                 AS OF MARCH 31, 2004

                                                    Funds to
                                       Disallowed   be put to               Reason action has not
         Report               Date       Costs      better use                 been completed

Audit of the RRB’s           2/23/01     None              None	      The Bureau of Information Services
FY 2000 Financial                                                     will address the last
Statements (01-03)                                                    recommendation on problem reports
                                                                      pending available funds.

Timeliness of Desk           6/28/01     None              None	      The Bureau of Human Resources
Audit and Vacancy                                                     will start reporting performance data
Announcement                                                          using a recently developed tracking
Processing by the                                                     system.
Bureau of Human
Resources (01-08)

Site Security                7/20/01     None              None	      The Bureau of Information Services
Assessment for the                                                    has closed out 10 recommendations,
RRB                                                                   and is in the process of addressing
                                                                      the last 2.

Review of the Quality of     8/09/01     None            $ 529,996	   The Office of Programs finished a
the Debt Recognition                                                  quality assurance review of certain
and Collection for RRA                                                debts and hopes to issue findings by
Overpayments (01-11)                                                  the end of fiscal year 2004.

Security Controls            8/17/01     None              None	      The Bureau of Information Services
Analysis for the Office of                                            has closed 32 recommendations and
Inspector General                                                     is currently addressing the remaining
                                                                      6.

Review of Information        2/05/02     None              None	      The Bureau of Information Services
Security at the Railroad                                              has closed 14 recommendations and
Retirement Board                                                      is currently addressing the remaining
(02-04)                                                               14.

FY 2002 Evaluation of        8/27/02     None              None	      The agency is updating its disaster
Information Security at                                               recovery plans, and this item will
the RRB (02-12)                                                       remain open until all contractual
                                                                      activities have been performed once
                                                                      and reviewed by the Office of
                                                                      Inspector General.

Effectiveness of the         6/28/01     None              None	      The Office of Programs is
RRA Quality Assurance                                                 developing the necessary methods,
Program in Estimating                                                 controls and skills to assess
Exposure to Improper                                                  improper payments in order to close
Payments (03-01)                                                      the remaining recommendations.




                                                    40
                                                                     Semiannual Report to the Congress



   MANAGEMENT STATEMENT ON RESOLVED AUDIT REPORTS

   OVER TWELVE MONTHS OLD WITH FINAL ACTION PENDING

                 AS OF MARCH 31, 2004

                                                        Funds to
                                      Disallowed        be put to           Reason action has not
         Report              Date       Costs           better use            been completed

Evaluation of the Self-    12/27/02     None               None	      The Bureau of Information Services
Assessment Process for                                                is devising procedures for system
Information System                                                    security assessments, including use
Security (03-02)                                                      of automated software tools.

Evaluation of RRB E-       12/27/02     None               None	      The Bureau of Fiscal Operations is
government Initiative:                                                in the process of developing a
RUIA Contribution                                                     revised MOU with Treasury’s
Interest Reporting and                                                Financial Management Service to
Payment (03-03)                                                       close out the two remaining
                                                                      recommendations.

Review of the RRB’s        3/18/03      None               None	      The agency will determine
Progress in Meeting                                                   compliance with financial
Selected Federal                                                      management guidelines as part of its
Financial Management                                                  management control review process
Requirements (03-04)                                                  to address the remaining open
                                                                      recommendation.

Inspection of Unverified   3/20/03      None               None	      The Office of Programs is
Records in the RRB’s                                                  developing procedures to verify data
Employment Data                                                       reported by employers for individual
Maintenance System                                                    railroad workers.




                                                   41
October 1, 2003 - March 31, 2004



A P P E N D I X E
REPORTING REQUIREMENTS

Inspector General Requirements                                                                   Page

    Section 4(a)(2) - Review of Legislation and Regulations                                         33
    Section 5(a)(1) - Significant Problems, Abuses, and Deficiencies                                 6
    Section 5(a)(2) - Recommendations With Respect to Significant Problems,
      Abuses, and Deficiencies                                                                       8
    Section 5(a)(3) - Prior Significant Recommendations Not Yet Implemented                          9
    Section 5(a)(4) - Matters Referred to Prosecutive Authorities                                   17
    Section 5(a)(5) - Instances Where Information Was Refused                                    None
    Section 5(a)(6) - List of Audit Reports                                                         34
    Section 5(a)(7) - Summary of Each Significant Report                                             6
    Section 5(a)(8) - Statistical Tables on Management Decisions on Questioned Costs                35
    Section 5(a)(9) - Statistical Tables on Management Decisions on
      Recommendations That Funds Be Put to Better Use                                               35
    Section 5(a)(10) - Summary of Each Audit Report Over 6 Months Old
      For Which No Management Decision Has Been Made                                             None
    Section 5(a)(11) - Description and Explanation for Any Significant
      Revised Management Decision                                                                None
    Section 5(a)(12) - Information on Any Significant Management Decisions
      With Which the Inspector General Disagrees                                                 None


Management Requirements


    Section 5(b)(1) - Comments Deemed Appropriate                                    Transmittal Letter
    Section 5(b)(2) - Statistical Table on Final Action on Disallowed Costs                         37
    Section 5(b)(3) - Statistical Table on Final Action To Put Funds to Better Use                  38
    Section 5(b)(4) - Statement on Audit Reports With Final Action Pending                          39




                                                42
              REPORT


FRAUD, WASTE AND ABUSE





Call the OIG Hotline:
         1-800-772-4258

E-mail:    Hotline@oig.rrb.gov

The OIG cannot ensure confidentiality to
persons who provide information via e-mail.
Do not send information by e-mail that you
do not want a third party to read.

Write: 	RRB-OIG Hotline Officer
        844 North Rush Street
        Chicago, IL 60611-2092
